Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




           MEDICARE COMPLIANCE
                REVIEW OF
           COX MEDICAL CENTER
            FOR 2010 AND 2011



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General
                                                   for Audit Services

                                                     September 2014
                                                      A-07-12-05038
                      Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Cox Medical Center did not fully comply with Medicare requirements for billing inpatient and
outpatient services, resulting in overpayments of approximately $302,000 over more than
2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Cox Medical Center (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 635-bed acute care hospital located in Springfield, Missouri. Medicare paid the
Hospital approximately $245 million for 18,475 inpatient and 224,948 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

Our audit covered $4,374,924 in Medicare payments to the Hospital for 210 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 108
inpatient and 102 outpatient claims. Of the 210 claims, 208 claims had dates of service in CY
2010 or CY 2011, and 2 claims (involving outpatient manufacturer credits for replaced medical
devices) had dates of service in CY 2009 or CY 2012.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 177 of the 210 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 33 claims, resulting in overpayments of $301,571 for CYs
2010 and 2011 (31 claims) and CYs 2009 and 2012 (2 claims). Specifically, 21 inpatient claims


Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                i
had billing errors, resulting in overpayments of $190,069, and 12 outpatient claims had billing
errors, resulting in overpayments of $111,502. These errors occurred primarily because the
Hospital did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $301,571, consisting of $190,069 in overpayments for
        21 incorrectly billed inpatient claims and $111,502 in overpayments for 12 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with all of our findings and
described corrective actions that it had taken or planned to take, including the processing of
refunds, to implement our recommendations.




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                 ii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Cox Medical Center.......................................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................4

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Insufficiently Documented Procedures .........................................................................4
            Incorrectly Billed as Inpatient .......................................................................................4
            Incorrectly Billed as Separate Inpatient Stays ...............................................................5
            Manufacturer Credit for Replaced Medical Devices Not Reported ..............................5
            Unsupported Charge ......................................................................................................6

       Billing Errors Associated With Outpatient Claims................................................................6
             Insufficiently Documented Procedures .........................................................................6
             Manufacturer Credits for Replaced Medical Devices Not Reported ............................6
             Incorrectly Billed as Outpatient ....................................................................................7

RECOMMENDATIONS ...............................................................................................................7

AUDITEE COMMENTS...............................................................................................................7

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................8

        B: Results of Review by Risk Area ...................................................................................10

        C: Auditee Comments ........................................................................................................11




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                                                             iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Cox Medical Center (the Hospital) complied with
Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                               1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient and outpatient claims paid in excess of charges,

    •    inpatient short stays,

    •    inpatient same-day discharges and readmissions,

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient DRG verification,

    •    inpatient claims billed with kyphoplasty services,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    inpatient claims with payments greater than $150,000,

    •    outpatient claims billed with inpatient only procedures,

    •    outpatient claims billed with modifiers,

    •    outpatient surgeries billed with units greater than one,

    •    outpatient claims billed during DRG payment window,

    •    outpatient claims with payments greater than $25,000, and

    •    outpatient claims billed with doxorubicin hydrochloride.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                             2
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). In addition, the Manual states that providers must use HCPCS
codes for most outpatient services (chapter 23, § 20.3).

Cox Medical Center

The Hospital is a 635-bed acute care hospital located in Springfield, Missouri. Medicare paid the
Hospital approximately $245 million for 18,475 inpatient and 224,948 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $4,374,924 in Medicare payments to the Hospital for 210 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 108
inpatient and 102 outpatient claims. Of the 210 claims, 208 claims had dates of service in CY
2010 or CY 2011, and 2 claims (involving outpatient manufacturer credits for replaced medical
devices) had dates of service in CY 2009 or CY 2012. 2 We focused our review on the risk areas
that we had identified as a result of previous OIG reviews at other hospitals. We evaluated
compliance with selected billing requirements and subjected six claims to focused medical
review to determine whether the services were medically necessary. This report focuses on
selected risk areas and does not represent an overall assessment of all claims submitted by the
Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.




2
 We selected these two claims for review because the risk area that involves manufacturer credits for replaced
medical devices has a high risk of billing errors.


Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                                 3
                                             FINDINGS

The Hospital complied with Medicare billing requirements for 177 of the 210 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 33 claims, resulting in overpayments of $301,571 for CYs
2010 and 2011 (31 claims) and CYs 2009 and 2012 (2 claims). Specifically, 21 inpatient claims
had billing errors, resulting in overpayments of $190,069, and 12 outpatient claims had billing
errors, resulting in overpayments of $111,502. These errors occurred primarily because the
Hospital did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors. For the results of our review by risk area, see
Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 21 of 108 selected inpatient claims that we
reviewed. These errors resulted in overpayments of $190,069.

Insufficiently Documented Procedures

Medicare payment may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

For 11 out of 108 selected claims, the Hospital billed Medicare with incorrectly coded claims
that resulted in higher DRG payments to the Hospital. Specifically, certain procedure and
diagnosis codes were not supported in the medical records. The Hospital attributed these errors
to a misunderstanding of coding guidelines. As a result of these errors, the Hospital received
overpayments of $95,680.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

According to chapter 1, section 10, of the CMS Benefit Policy Manual (Pub. No. 100-02), factors
that determine whether an inpatient admission is medically necessary include:

    •   the severity of the signs and symptoms exhibited by the patient;

    •   the medical predictability of something adverse happening to the patient;

    •   the need for diagnostic studies that appropriately are outpatient services (i.e., their
        performance does not ordinarily require the patient to remain at the hospital for 24 hours
        or more) to assist in assessing whether the patient should be admitted; and




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                   4
    •   the availability of diagnostic procedures at the time when and at the location where the
        patient presents.

For 3 out of 108 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital stated that the admitting physician makes the decision to admit the patient as an
inpatient, and added that it has reorganized the Case Management Department to ensure better
coverage for all cases. As a result of these errors, the Hospital received overpayments of
$56,920. 3

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

For 5 out of 108 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions that occurred within the same day. The Hospital stated that these errors
occurred due to a misunderstanding of what would be considered related and unrelated
symptoms by the staff member making these decisions. As a result of these errors, the Hospital
received overpayments of $26,628.

Manufacturer Credit for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 1 out of 108 selected claims, the Hospital received a reportable medical device credit from a
manufacturer but did not adjust its inpatient claim with the appropriate condition and value codes
to reduce payment as required. This overpayment occurred because the Hospital did not have
adequate controls to report the appropriate condition and value codes to accurately reflect credits


3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor before the issuance of our report.


Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                                5
it had received from manufacturers. As a result of this error, the Hospital received an
overpayment of $7,500.

Unsupported Charge

The Act states: “[N]o such payments shall be made to any provider unless it has furnished such
information … in order to determine the amounts due such provider … for the period with
respect to which the amounts are being paid….” (§ 1815(a)).

For 1 out of 108 selected claims, the Hospital submitted the claim to Medicare with an
unsupported charge, resulting in a higher outlier payment than was warranted. For this claim, the
Hospital billed for a quantity of a medication that was not supported by the medical records. The
Hospital attributed the overpayment to clerical error. As a result of this error, the Hospital
received an overpayment of $3,341.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 12 of 102 selected outpatient claims that we
reviewed. These errors resulted in overpayments of $111,502.

Insufficiently Documented Procedures

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

For 6 out of 102 selected claims, the Hospital submitted the claims to Medicare with procedure
codes that were not supported in the medical records. The Hospital attributed the overpayments
to human and computer errors. As a result of these errors, the Hospital received overpayments of
$65,042.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 4

For 5 out of 102 selected claims, the Hospital received full credit for replaced medical devices
but did not report the “FB” modifier and reduced charges on its claims. (Of the five claims, one

4
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                        6
had a date of service in CY 2009, one had a date of service in CY 2010, two had dates of service
in CY 2011, and one had a date of service in CY 2012.) These overpayments occurred because
the Hospital did not have adequate controls to report the appropriate modifiers and charges to
reflect credits received from manufacturers. As a result of these errors, the Hospital received
overpayments of $45,925.

Incorrectly Billed as Outpatient

Certain items and nonphysician services furnished to inpatients are covered under Medicare Part
A and consequently are covered by the IPPS payment rate (the Manual, chapter 3, section 10.4).

For 1 out of 102 selected claims, the Hospital incorrectly billed Medicare Part B for outpatient
services provided during an inpatient stay that should have been included on its inpatient (Part
A) bills to Medicare. The Hospital attributed the overpayment to clerical error. As a result of
this error, the Hospital received an overpayment of $535.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $301,571, consisting of $190,069 in overpayments for
        21 incorrectly billed inpatient claims and $111,502 in overpayments for 12 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                      AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with all of our findings and
described corrective actions that it had taken or planned to take, including the processing of
refunds, to implement our recommendations.

The Hospital’s comments appear in their entirety as Appendix C.




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                 7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $4,374,924 in Medicare payments to the Hospital for 210 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 108
inpatient and 102 outpatient claims. Of the 210 claims, 208 claims had dates of service in CY
2010 or CY 2011, and 2 claims (involving outpatient manufacturer credits for replaced medical
devices) had dates of service in CY 2009 or CY 2012 (footnote 2).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected six claims to focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from October 2012 to June 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

    •   obtained information on known credits for replacement medical devices from the device
        manufacturers for CYs 2009 through 2012;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 210 claims (108 inpatient and 102 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;



Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                 8
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   used an independent medical review contractor to determine whether six selected claims
        met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials on June 9, 2014.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                 9
                           APPENDIX B: RESULTS OF REVIEW BY RISK AREA

                                                                                                    Claims
                                                                                  Value of           With            Value of
                                                               Selected           Selected          Over-             Over-
                     Risk Area                                 Claims             Claims           payments          payments
Inpatient
Claims Paid in Excess of Charges                                        26           $476,589                 7               56,890

Short Stays                                                               6             92,608                2               48,355

Same-Day Discharges and Readmissions                                    10              92,639                5               26,628
Claims Billed With High Severity Level Diagnosis-
                                                                        50           1,934,461                2               21,868
Related Group Codes
Diagnosis-Related Group Verification                                    11             271,015                2               16,922

Claims Billed With Kyphoplasty Services                                   1               8,565               1                8,565
Manufacturer Credits for Replaced Medical
                                                                          2             11,693                1                7,500
Devices
Claims With Payments Greater Than $150,000                                2            369,930                1                3,341
 Inpatient Totals                                                      108         $3,257,500                21             $190,069

Outpatient
Claims Billed With Modifiers                                            20           $274,769                 1              $52,597
Manufacturer Credits for Replaced Medical
                                                                          7             66,378                5               45,925
Devices
Claims Paid in Excess of Charges                                          2             17,587                2                8,972

Surgeries Billed With Units Greater Than One                              8             35,374                3                3,473

Diagnosis-Related Group Payment Window                                    2             11,070                1                 535

Claims With Payments Greater Than $25,000                               15             514,519                0                   0

Claims Billed With Doxorubicin Hydrochloride                            47             193,370                0                   0
Claims Billed With Inpatient Only Procedures                              1               4,357               0                   0
 Outpatient Totals                                                     102         $1,117,424                12             $111,502

 Inpatient and Outpatient Totals                                       210         $4,374,924                33             $301,571

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
       outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at the Hospital. Because we have organized the information differently, the information in
       the individual risk areas in this table does not match precisely with this report’s findings.


       Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                               10
                                        APPENDIX C: AUDITEE COMMENTS





          August 7, 2014
                                                                                                         ~oxHEALTH
          Patrick J. Cogley
          Regional Ins pector General for Audit Services
          Office of Inspector Gener a l
          Office of Audit Services, Regional VII
          60 1 East 12th Street, Room 0429
          Kansas City, Missouri 64 106

                       RE: Report Number: A-07-12-05038

          Dear Mr. Cogley:

          Thank you for forwar din g a copy of the draft report of our Medicare Compliance
          Review. As I understand your letter, you are seeking a response from me on each
          "con curr ence" that describes the nature of the corrective action taken or plan ned;
          as well as the reason for an y "non-concurrence" and alternative corr ective action
          taken or planned .

           My comments are below:

           Insufficiently Documented Procedures:
           CoxHealth concurs with this finding. Our Health Informa tion Management (HIM)
           coding department was notified of these coding error s and th ey have been re­
           educated. In addition CoxHealth has contracted with a new company to conduct
           periodic coding reviews of our inpatient a nd outpatient coding. All refu nds h ave
           been processed.

           Incorrectly Billed as Inpatient
           CoxHealth concurs with this finding. We continue to provide education to our
           physicians regarding appropriate inpatient s tatus vs. outpatien t status. Annual
           Complia nce Training this year focused on this topic and the CMS 2-midnight
           rule. All refunds have been processed.

           Incorrectly Billed as Separate Inpatient Stays
           CoxHealth concurs with this finding. We h ave re-worked this p rocess andre­
           educated those involved regarding the definition of related and un-related visits.




            t!.!!.!~tQfl Cancer Center Building • 3850 South National Avenue • Springfield, Missouri 65807

            coxhealth.com




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                                     11
          Mr. Patrick J . Cogley
          August 7, 2014
          Page 2


          Manufacturer Credit for Replaced Medical Devices Not Reported
          CoxHealth concurs with this finding. CoxHealth has initiated a new process to
          catch device credits and ensure that the information is provided to CMS and the
          claim is billed correctly. All refunds have been processed.

          Unsupported Charge
          CoxHealth concurs with this finding. This was a clerical error during posting of
          charges for surgical services. Additional education was provided. All refunds
          have been processed.

          Insufficiently Documented Procedures
          CoxHealth concurs with this finding. This error resulted from a clerical posting
          mistake. Many of these minor errors were a result of launching a new IT program
          for our surgical services department. Although we worked diligently to audit and
          correct all errors, some were missed. Ail refunds have been processed.

          Manufac turer Credit s for Replaced Medical Devices Not Re ported.
          CoxHealth concurs with this finding. CoxHealth has initiated a new process to
          catch device credits and ensure that the information is provided to CMS and the
          claim is billed correctly. All but one of these claims has been refunded and
          reprocessed. The claim from 2009 has not been handled, as we are having
          difficulty with our Medicare Administrative Contract to re-open the claim so that
          we can re-process the credit. All other refunds have been processed.

          Incorrectly Billed as Outpatient
          CoxHealth concurs with this finding. Again, this was a clerical error within a very
          manual process of identifying patients who received services in one of 55
          physician clinics and that were then admitted to the hospital within 3 days of
          those services. CoxHealth is working to bring the various billing systems to a
          single billing system, which would eliminate these types of errors. We will
          continue to monitor. All refunds have been processed.

           CoxHealth appreciates the assistance provided by the Office of Inspector General
           during this audit process.

           Sincerely,



           ~~h~~
           Vice President   I Corporate Integrity




Medicare Compliance Review of Cox Medical Center (A-07-12-05038)                                12
